BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-426
WILLIAM L. HUNTRESS AND
ACQUEST DEVELOPMENT, LLC,

Petitioners,
V.

UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of Amicus Curiae National
Association of Home Builders of the United States in
Support of Petitioners contains 2,655 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on November 2, 2020.

Donna J. Wolf
~
Becker Gallagher Legal Puo shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Exrires
February 14, 2023

